           OFFICE OF
    THE INSPECTOR GENERAL
SOCIAL SECURITY ADMINISTRATION

  SUPPLEMENTAL SECURITY INCOME
    RECIPIENTS ELIGIBLE FOR, OR
    RECEIVING, RUSSIAN PENSIONS

   December 2012   A-01-12-21238




AUDIT REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
MEMORANDUM


Date:      December 10, 2012                                                                  Refer To:

To:        The Commissioner

From:      Inspector General

Subject:   Supplemental Security Income Recipients Eligible for, or Receiving, Russian Pensions
           (A-01-12-21238)


           OBJECTIVE
           Our objective was to identify Supplemental Security Income (SSI) recipients who may
           have been overpaid because they were eligible for, or were receiving, Russian
           pensions.

           BACKGROUND

           The SSI program is a national Federal cash assistance program administered by the
           Social Security Administration (SSA) that provides a minimum level of income to
           financially needy individuals who are aged, blind, or disabled. 1 Since the SSI program
           is intended to be a program of last resort, individuals must first apply for all other
           benefits for which they are potentially eligible after receiving notice from SSA. 2
           Generally, individuals are not eligible for SSI if they fail to take all the appropriate steps
           to apply for all other benefits for which they may be eligible—including pensions. 3

           When SSA personnel take an initial application or perform a redetermination, they ask
           individuals if they are receiving a pension or worked under a pension plan in a foreign
           country. Redeterminations are periodic reviews of the non-medical factors of SSI
           eligibility. According to SSA’s Performance and Accountability Report, the Agency
           processed 2.47 million SSI redeterminations in Fiscal Year (FY) 2010 and 2.46 million
           redeterminations in FY 2011.

           1
               Social Security Act § 1601 et seq., 42 U.S.C. § 1381 et seq.
           2
             Social Security Act § 1611(e)(2), 42 U.S.C.§ 1382(e)(2) provides that “No person shall be an eligible
           individual or eligible spouse for purposes of this title if, after notice to such person by the Commissioner of
           Social Security that it is likely that such person is eligible for any payments of the type enumerated in
           section 1612(a)(2)(B), such person fails within 30 days to take all appropriate steps to apply for and (if
           eligible) obtain any such payments.”
           3
               20 C.F.R. §§ 416.210(a) and (b).
Page 2 - The Commissioner


SSA maintains place of birth information in its records and verifies this information with
the claimant during an initial claim. Place of birth information is also available to SSA
employees during redeterminations. In addition, SSA notes in its records the recipient’s
preferred language, which could also indicate the recipient worked in a foreign country
at one time and could be eligible for a pension.

Foreign pension-paying entities that pay income to persons living in the United States
do not usually make the income information readily available to the Internal Revenue
Service. Thus, SSA cannot detect these pensions through electronic systems
interfaces and therefore individuals must self-report them. However, there is no
incentive for SSI recipients to report the pension income since it could reduce their
monthly SSI payment or make them ineligible for SSI.

An SSA employee researched the Russian pension system and found that many SSI
recipients who came from Russia were eligible for Russian pensions. He created a
guide his field office (FO) used to determine eligibility for Russian pensions (see
Appendix B). Russian pensions may be payable to individuals with as little as 5 years
of work in Russia, even though the individuals reside in the United States. In
April 2011, the FO employee referred this matter to the Office of the Inspector General.

This FO agreed to work 20 cases in which it appeared the recipient might be eligible for
a Russian pension and had a pending redetermination on the record. Of these
20 cases, 9 (45 percent) were receiving, or were eligible to receive, Russian pensions.
As of July 2012, overpayments totaling $28,595 had been posted in six of the nine
cases.

To conduct our review, we identified 25,642 SSI recipients nationwide who may have
been eligible for Russian pensions. From this population, we randomly selected
200 cases for detailed analysis. (See Appendix C for our scope, methodology, and
sample results.)

RESULTS OF REVIEW
Based on the results of our review, we estimate at the 90-percent confidence level that
8,718 SSI recipients were eligible for, or were receiving, undisclosed Russian
pensions. 4 In addition, we estimate SSA overpaid 2,051 recipients about $45 million
because of undisclosed Russian pensions and will continue improperly paying about
$5 million in SSI payments over the next 12 months if this income is not properly posted
to SSA’s records. 5 These errors occurred because recipients did not report their
4
  We are 90-percent confident that the number of recipients eligible for, or receiving, Russian pensions
lies within the lower limit of 7,300 recipients and the upper limit of 10,228 recipients.
5
  We are 90-percent confident that the number of recipients overpaid lies within the lower limit of
1,306 recipients and the upper limit of 3,046 recipients. The amount of overpayments lies within the
lower limit of $18.3 million and the upper limit of $70.8 million. The amount paid over the next 12 months
lies within the lower limit of $2.7 million and upper limit of $7.6 million. See Tables C-4 and C-5 in
Appendix C.
Page 3 - The Commissioner


Russian pension income to SSA. However, SSA staff could have identified the
possibility of a pension by probing cases where people had moved to the United States
from Russia. Many of the SSI recipients in our sample only spoke Russian, and we
were unable to communicate with them in English. Their place of birth and language
preference indicated that they may have worked in Russia and been eligible for a
pension.

Specifically, of the 200 recipients in our sample,
•     17 (8 percent) were receiving a                                  Sample Results
      Russian pension and were overpaid
      approximately $347,503; 6                        Not Eligible                           Receiving
                                                                                              a Pension
•     51 (26 percent) appeared to be                   for a Pension
                                                                       58%
      eligible for, but were not receiving, a                                               8%
      Russian pension;
•     115 (58 percent) were not eligible for                                          26%
      a Russian pension; 7 and
                                                                             8%
•     17 (8 percent) had not yet responded                 Did not                 Eligible for but not
      to our request for information. As of                Respond                 Receiving a Pension
      August 2012, SSA had sent notices
      to four of these recipients.

RECIPIENTS RECEIVING RUSSIAN PENSIONS

Of the 200 cases in our sample, 17 admitted to receiving a Russian pension. The
average monthly pension was $213, ranging from a low of $4 to a high of $452. Of
these 17 recipients, 16 recipients’ SSI payments should be reduced by a total of
$3,337 per month, and $40,044 over the next 12 months. In addition, these recipients
were overpaid a total of $347,503, 8 with an average overpayment of $20,441 over an
average of more than 8 years. As of August 2012, SSA had initiated corrective action
for 10 cases and assessed $40,092 in overpayments for 8 of these cases.

For example, a New York man began receiving SSI payments in December 1994. At
that time, he did not disclose he was receiving a Russian pension. Additionally, SSA
conducted several redeterminations throughout the years during which the recipient did
not disclose his pension. The recipient responded to our letter stating he had been

6
    One of the 17 recipients was not overpaid because the pension amount was very low.
7
  Of these 115 recipients, 111 did not work in Russia. They were included in our population because of
limitations in the data available to us. The four remaining recipients were deceased.
8
  As a result of SSA’s rules of administrative finality, the Agency may be unable to recover $278,134 of
the $347,503 in overpayments. Under SSA’s application of its administrative finality rules for SSI, the
time period SSA can assess an overpayment to a recipient is (a) 1 year for any reason, (b) 2 years for
good cause, and (c) any time when fraud or similar fault is found (POMS, section SI 04070.010, effective
September 9, 2011).
Page 4 - The Commissioner


receiving a Russian pension of $387 per month since April 1987. Generally, SSA
should have reduced his payments by $367 per month for 211 months, causing a
$77,344 overpayment. SSA will save $4,404 over the next 12 months by correcting this
record.

In another example, a New York woman began receiving SSI payments in
January 1997 and did not disclose she was receiving a Russian pension. In response
to our letter, she stated she started receiving a Russian pension in 1995, before her SSI
payments started. While she did not state what her pension amount was in 1995, she
stated that, in November 2009, the pension was significantly increased to $185 because
of a change in the law. SSA suspended her SSI payments in October 2009 because
she was in Russia for longer than 30 days, and she would have had to provide
documentation of the departure and return.

Additionally, SSA performed redeterminations in December 2010 and November 2011,
and she did not report her pension at any of these opportunities. Generally, SSA should
have reduced her payments by $165 per month for 32 months—going back to
November 2009 when her pension was significantly increased—causing a
$5,142 overpayment. SSA will save $1,980 over the next 12 months by correcting this
record.

RECIPIENTS WHO APPEARED TO BE ELIGIBLE FOR RUSSIAN PENSIONS

Of the 200 cases in our sample, 51 appeared to meet the criteria to be eligible for a
Russian pension, though they stated they were not receiving a pension. We provided
these recipients with the contact information to file for these pensions. Of these
51 recipients,
   •   12 were applying for a Russian pension, and
   •   39 stated they will not take the action needed to apply for a Russian pension.

Applying for a Pension

Twelve recipients stated they were taking action to apply for a Russian pension. Some
need to apply for, or renew, their Russian passport before applying for the pension.
Therefore, in some cases, the process may take several months for a decision. Many
of these recipients worked in Russia for over 30 years and will finally receive benefits for
which they worked. We have requested SSA follow up on these cases to determine the
status of these applications.

For example, a California woman worked in Russia for 38 years and thought she was
eligible for a Russian pension. She stated that she needed to confirm her Russian
citizenship, obtain a Russian passport, and file for the pension. This process could take
over 9 months. In cases where the individual already has a Russian passport, the
application process may take only 3 months.
Page 5 - The Commissioner


Will Not Apply for Pension

Thirty-nine recipients stated they would not take the action needed to apply for the
pension even though they appeared to be eligible. Table 1 summarizes their reasons.

       Table 1: Reasons Recipients Will Not Apply for a Russian Pension
                                                     Number of
                         Reason                                   Percent
                                                       Cases
   Age/Health Issues                                     10         25%
   Unwilling to Obtain Required Documents                 9         23%
   Do Not Believe They Are Eligible                       8         21%
   Did Not Give Reason                                    7         18%
   Fear/Refugee Status                                    5         13%
   TOTAL                                                 39        100%

For example, we received a letter from a California man who contacted us on his
mother’s behalf. He stated that his mother had been receiving a Russian pension
before she came to the United States, but she was not able to transfer the pension to
the United States. His mother will not file for the pension because (1) her physical and
mental health have deteriorated, (2) she does not have a current Russian passport, and
(3) she is a loyal U.S. citizen and does not want to deal with Russian officials.

In another example, a New York woman called in response to our letter. She stated
that she had been receiving a Russian pension, but it stopped in January 2012 because
she did not file the paperwork to renew it. When we explained that it was an SSI
requirement that she receive this pension, she stated that she did not want the pension
anymore.

In another example, a Massachusetts woman stated she worked in Russia for 39 years
but was not receiving a pension. She stated that she was not eligible for a pension
because she needed a valid passport, and her passport expired in 2005.

Based on SSA FO staff experience, some of these recipients may have already been
receiving a Russian pension. This particular SSA FO had seen many cases in which,
when asked, recipients stated they were not receiving a Russian pension. When it
appeared the recipient was eligible for a pension, the SSA claims representative issued
a notice to the recipient stating that his/her SSI payments would be suspended if he/she
did not file for the pension. These recipients did not respond, but after SSI payments
were suspended, they submitted documentation proving they were receiving a Russian
pension.

We referred the cases in which recipients will not file for the Russian pensions for which
they appeared to be eligible to SSA for further action. As of August 2012, SSA had sent
notices to 16 of these recipients.
Page 6 - The Commissioner


CONCLUSION AND RECOMMENDATIONS
As SSI is a program of last resort, recipients must apply for all other benefits for which
they are potentially eligible. We estimate that 8,718 recipients are eligible for, or
receiving, undisclosed Russian pensions. Additionally, we estimate SSA overpaid
about 2,051 recipients about $45 million because of undisclosed Russian pensions.

We recommend that SSA:

1. Follow up on the cases in our sample in which the recipients are receiving or eligible
   for Russian pensions and take appropriate corrective action.

2. Remind employees to inquire about the possibility of foreign pensions during initial
   claims and redeterminations.

3. Evaluate the guide developed by the SSA employee and determine whether it
   should be made available to SSA staff nation-wide.

AGENCY COMMENTS
Although SSA agreed with the recommendations, the Agency expressed legal concern
about instituting any policy that targets recipients with a specific foreign-born status in
its fraud prevention efforts. See Appendix D.

OIG RESPONSE
OIG is not suggesting that SSA institute a policy that targets recipients with a specific
foreign-born status. Further, determination of sources of income and resources is
consistent with SSA’s treatment of other current or prospective SSI recipients, in that
they are all subject to restrictions on income and resources to qualify for SSI benefits,
and related determinations/verification of income and resource information provided.

Our recommendations for instituting policies to protect the integrity of government funds
should be uniformly applied for all prospective claims and redeterminations. Our audit
focused on SSI recipients born in Russia because SSA alerted OIG to a high incidence
of individuals who were ineligible for SSI because they were receiving or eligible for
Russian pensions. An SSA FO fraud referral informed us that based on research in that
FO “most SSI recipients who came from Russia were either entitled or eligible for
Russian pensions.” The FO initially reviewed a small sample of cases and found
45 percent were ineligible for SSI. To assess the magnitude of the problem, we initiated
this review. Because of the confirmation of SSI ineligibility associated with Russian
pensions, our second recommendation focuses on assessing potential ineligibility for all
SSI recipients who may have foreign pensions. Also, as noted in the background
section of this report, foreign pension-paying entities that pay income to persons living
in the United States do not usually make the income information readily available to the
Internal Revenue Service. Thus, SSA cannot detect these pensions through electronic
Page 7 - The Commissioner


systems interfaces and therefore individuals must self-report them. However, there is
no incentive for SSI recipients to report the pension income since it could reduce their
monthly SSI payment or make them ineligible for SSI. Therefore, SSA instituting policy
and procedures to identify income and resources from foreign pensions will serve to
protect the integrity of government resources by minimizing the vulnerability to fraud,
waste and abuse. Analysis of foreign pensions would constitute one element of making
a determination of income and resources from all sources, as SSA does for all
applicants and recipients of SSI benefits, all of whom are subject to income and
resource restrictions to qualify for benefits.




                                        Patrick P. O’Carroll, Jr.
                                    Appendices
APPENDIX A – Acronyms

APPENDIX B – Russian Pension Decision Tree

APPENDIX C – Scope, Methodology, and Sample Results

APPENDIX D – Agency Comments

APPENDIX E – OIG Contacts and Staff Acknowledgments
                                            Appendix A

Acronyms
C.F.R.   Code of Federal Regulations
FO       Field Office
FY       Fiscal Year
POMS     Program Operations Manual System
SSA      Social Security Administration
SSI      Supplemental Security Income
U.S.C.   United States Code
                                                                               Appendix B

Russian Pension Decision Tree
A Social Security Administration (SSA) employee researched the Russian pension
requirements and created the following chart to assist other employees in determining
whether a Supplemental Security Income (SSI) claimant was eligible for a Russian
pension. It assumes the claimant came from Russia (not from other republics of the
former Soviet Union), was not receiving a Russian pension, and worked in Russia for at
least 5 years.

STEP         CONDITION                               YES                               NO
         Claimant came to the     Claimant came under pension system of        Go to step 2.
    1    United States before     the former Soviet Union and is not
         December 20, 1990.       eligible for Russian pension. Go to
         (Hint: look when the     step 5.
         first NUMI was
         established). 1
    2    When the claimant        Claimant was receiving pension in            Go to step 3.
         moved from Russia        Russia and can continue receiving it in
         to the United States,    the United States even if claimant does
         he/she was over          not have Russian citizenship. Claimant
         age 55 (if female) or    must reinstate pension (new application
         over age 60 (if male).   is not required). Go to step 5.
    3    Currently, the           Claimant is under retirement age and is      Go to step 4.
         claimant is under        not eligible. If claimant is within 6
         age 55 (if female) or    months of reaching age 55 (for females)
         under age 60 (if         or age 60 (for males), set the pension
         male).                   tickle (to follow up on case later). Go to
                                  step 5.
    4    Claimant came to the     Claimant will never lose Russian             Claimant is
         United States after      citizenship and is eligible for Russian      potentially eligible
         February 6, 1992         pension. Claimant must apply for             if he/she reinstates
         (effective date of a     pension. Go to step 5.                       Russian
         new law concerning                                                    citizenship, which
         Russian citizenship).                                                 can be done.
                                                                               Claimant must still
                                                                               apply for pension
                                                                               and provide
                                                                               proofs. Go to
                                                                               step 5.
    5                                              STOP


1
 The NUMI (Numident) is SSA’s record system which contains Social Security number data, such as
date of birth and place of birth.
                                                                       Appendix C

Scope, Methodology, and Sample Results
To achieve our objective, we:

•   Reviewed applicable sections of the Social Security Act and the Social Security
    Administration’s (SSA) regulations, rules, policies, and procedures.
•   Obtained a file of 25,642 Supplemental Security Income (SSI) recipients who may
    be eligible for, or receiving, Russian pensions. This population consisted of SSI
    recipients
      (1) with a place of birth of Russia or the Union of Soviet Socialist Republics on
          SSA’s records,
      (2) old enough to be eligible for a Russian pension in 1990,
      (3) who did not already have a pension posted to the SSI record,
      (4) who obtained their first Social Security number card at age 23 or older
          (so they could have worked 5 years in Russia), and
      (5) who entered the United States in 1991 or later.
    We tested the data obtained for our audit and determined them to be sufficiently
    reliable to meet our objective.
•   Selected a random sample of 200 cases for detailed review. For each case, we:
      Sent the recipient a letter to determine whether they were receiving or eligible
       for a Russian pension. We requested that recipients who were eligible for
       Russian pensions start the application process. For those receiving Russian
       pensions, we requested the amount.
      Calculated the amount of benefits overpaid to recipients because of undisclosed
       Russian pensions.
      Referred cases in which the recipient was receiving a Russian pension or
       unwilling to cooperate to the Agency for corrective action.
•   Projected the number of recipients who were overpaid because of undisclosed
    Russian pensions, along with the amount of overpayments. In addition, we
    projected the number of recipients who appeared to be eligible for a Russian
    pension.




                                           C-1
We conducted our audit between March and July 2012 in Boston, Massachusetts. The
entities audited were SSA’s field offices under the Office of the Deputy Commissioner
for Operations. We conducted this performance audit in accordance with generally
accepted government auditing standards. Those standards require that we plan and
perform the audit to obtain sufficient, appropriate evidence to provide a reasonable
basis for our findings and conclusions based on our audit objectives. We believe the
evidence obtained provides a reasonable basis for our findings and conclusions based
on our audit objectives.

SAMPLE RESULTS

                        Table C-1: Population and Sample Size
         Population size                                                       25,642
         Sample size                                                              200

             Table C-2: Recipients Eligible for, or Receiving, Russian
                                    Pensions
                                    Attribute Projections
         Sample cases                                                               68
         Point estimate                                                         8,718
         Projection lower limit                                                 7,300
         Projection upper limit                                                10,228
             Note: All projections were calculated at the 90-percent confidence level.


          Table C-3: Recipients Overpaid Because of Russian Pensions
                                    Attribute Projections
         Sample cases                                                               16
         Point estimate                                                         2,051
         Projection lower limit                                                 1,306
         Projection upper limit                                                 3,046
             Note: All projections were calculated at the 90-percent confidence level.

                          Table C-4: Amount of Overpayments
                                      Dollar Projections
         Sample results                                                     $347,503
         Point estimate                                                 $44,553,360
         Projection lower limit                                         $18,315,209
         Projection upper limit                                         $70,791,510
              Note: All projections were calculated at the 90-percent confidence level.



                                               C-2
              Table C-5: Amount of Overpayments over 12 Months
                                     Dollar Projections
        Sample results                                                      $40,044
        Point estimate                                                   $5,134,041
        Projection lower limit                                           $2,684,903
        Projection upper limit                                           $7,583,179
             Note: All projections were calculated at the 90-percent confidence level.

                         Table C-6: Sample Cases by State
                    Number of
                                      Number of       Number of
                      Cases                                                              Total
      State                         Cases Eligible  Cases with No
                   Receiving a                                                           Cases
                                    for a Pension     Response
                     Pension
California                1                9               4                               14
Colorado                                   1                                                1
Connecticut                                1                                                1
Delaware                  1                                                                 1
Florida                                    1               1                                2
Idaho                                      1                                                1
Illinois                                   4                                                4
Indiana                                    1                                                1
Kentucky                  1                                                                 1
Massachusetts             1                4                                                5
Maryland                                   3                                                3
Michigan                                                   1                                1
Minnesota                 1                2                                                3
Missouri                                   1                                                1
Montana                                                    1                                1
New Jersey                1                3               1                                5
New York                 10               16               8                               34
Oregon                                     1                                                1
Pennsylvania                               2                                                2
Texas                                      1                                                1
Washington                1                                                                 1
Wisconsin                                                  1                                1
Total Cases Not Eligible                                                                  115
Total                    17               51              17                              200




                                              C-3
                  Appendix D

Agency Comments
                                         SOCIAL SECURITY

MEMORANDUM


Date:      October 19, 2012                                                        Refer To:   S1J-3

To:        Patrick P. O’Carroll, Jr.
           Inspector General

From:      Dean S. Landis /s/
           Deputy Chief of Staff

Subject:   Office of the Inspector General Draft Report, “Supplemental Security Income Recipients Eligible
           for or Receiving Russian Pensions” (A-01-12-21238) —INFORMATION

           Thank you for the opportunity to review the draft report. Please see our attached comments.

           Please let me know if we can be of further assistance. You may direct staff inquiries to
           Amy Thompson at (410) 966-0569.

           Attachment




                                                          D-1
COMMENTS ON THE OFFICE OF THE INSPECTOR GENERAL DRAFT REPORT,
“SUPPLEMENTAL SECURITY INCOME RECIPIENTS ELIGIBLE FOR OR
RECEIVING RUSSIAN PENSIONS” (A-01-12-21238)

General Comment

Although, we will take corrective action on cases involving foreign pensions consistent with our
program rules and policies, we have serious legal concerns about instituting any policy that
targets recipients with a specific foreign-born status in our fraud prevention efforts. The
Constitution of the United States of America provides for governmental decision-making and
actions that are neutral with respect to both race and national origin. We do not develop or
implement our program integrity activities by generally profiling recipients born outside the
United States or by nationality.

Recommendation 1

Follow up on the cases in our sample in which the recipients are receiving or eligible for Russian
pensions and take appropriate corrective action.
Response

We agree to follow up on these cases; however, we do not agree with your overpayment
estimates, because you based your estimates on unverified self-reported information.

Recommendation 2

Remind employees to inquire about the possibility of foreign pensions during initial claims and
redeterminations.
Response

We agree.

Recommendation 3

Evaluate the guide developed by the SSA employee and determine whether it should be made
available to SSA staff nation-wide.

Response

We agree.




                                               D-2
                                                                         Appendix E

OIG Contacts and Staff Acknowledgments
OIG Contacts

   Judith Oliveira, Director, Boston Audit Division

   David Mazzola, Audit Manager

Acknowledgments

In addition to those named above:

   Katie Greenwood, Senior Auditor

   Kevin Joyce, IT Specialist

   N. Brennan Kraje, Statistician

   Alla Resman, IT Specialist

For additional copies of this report, please visit our Website at http://oig.ssa.gov/ or
contact the Office of the Inspector General’s Public Affairs Staff at (410) 965-4518.
Refer to Common Identification Number A-01-12-21238.
                         Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of an Office of Audit (OA), Office of Investigations
(OI), Office of the Counsel to the Inspector General (OCIG), Office of External Relations (OER), and Office of
Technology and Resource Management (OTRM). To ensure compliance with policies and procedures, internal
controls, and professional standards, the OIG also has a comprehensive Professional Responsibility and Quality
Assurance program.
                                                  Office of Audit
OA conducts financial and performance audits of the Social Security Administration’s (SSA) programs and
operations and makes recommendations to ensure program objectives are achieved effectively and efficiently.
Financial audits assess whether SSA’s financial statements fairly present SSA’s financial position, results of
operations, and cash flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s
programs and operations. OA also conducts short-term management reviews and program evaluations on issues
of concern to SSA, Congress, and the general public.
                                              Office of Investigations
OI conducts investigations related to fraud, waste, abuse, and mismanagement in SSA programs and operations.
This includes wrongdoing by applicants, beneficiaries, contractors, third parties, or SSA employees performing
their official duties. This office serves as liaison to the Department of Justice on all matters relating to the
investigation of SSA programs and personnel. OI also conducts joint investigations with other Federal, State,
and local law enforcement agencies.
                            Office of the Counsel to the Inspector General
OCIG provides independent legal advice and counsel to the IG on various matters, including statutes,
regulations, legislation, and policy directives. OCIG also advises the IG on investigative procedures and
techniques, as well as on legal implications and conclusions to be drawn from audit and investigative material.
Also, OCIG administers the Civil Monetary Penalty program.
                                        Office of External Relations
OER manages OIG’s external and public affairs programs, and serves as the principal advisor on news releases
and in providing information to the various news reporting services. OER develops OIG’s media and public
information policies, directs OIG’s external and public affairs programs, and serves as the primary contact for
those seeking information about OIG. OER prepares OIG publications, speeches, and presentations to internal
and external organizations, and responds to Congressional correspondence.
                           Office of Technology and Resource Management
OTRM supports OIG by providing information management and systems security. OTRM also coordinates
OIG’s budget, procurement, telecommunications, facilities, and human resources. In addition, OTRM is the
focal point for OIG’s strategic planning function, and the development and monitoring of performance
measures. In addition, OTRM receives and assigns for action allegations of criminal and administrative
violations of Social Security laws, identifies fugitives receiving benefit payments from SSA, and provides
technological assistance to investigations.
